HHS/OIG, Audit - "Review of Urban and Rural Development Grant Number 90EE0322/01, West Humboldt Park Development Council, Chicago, Illinois," (A-05-01-00082)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Urban and Rural Development Grant Number 90EE0322/01, West
Humboldt Park Development Council, Chicago, Illinois," (A-05-01-00082)
April 9, 2002
Complete
Text of Report is available in PDF format (225 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of discretionary
grant number #90EE0322/01 awarded to the West Humboldt Park Family and Community
Development Council, Chicago, Illinois.  The grant provided $350,000 to
purchase and rehabilitate a deteriorating community shopping center.  The
primary objective was to create at least 60 new full-time jobs with 75 percent
being filled by low income individuals and at-risk youth.  Although the
Council successfully solicited a real estate developer to purchase and renovate
the shopping center, it (i) did not meet the employment goals included in the
approved grant proposal, (ii) has not required the real estate developer, or
the tenants of the shopping center, to hire individuals meeting the low-income
requirements of the grant, and (iii) has not filed a lien with appropriate authorities
to protect the Federal governments interest in the shopping center.  The
Council contended that the employment objectives of the grant were met but did
not provide support for the generation of new low-income or at-risk youth employment
and did not respond to our recommendation to record appropriate liens against
the real property improved, in part, with Federal funds.